      Department of Homeland Security




     U.S. Customs and Border Protection’s Penalty Process
                   – Statute of Limitations




OIG-12-131                                    September 2012

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov

                                       SEP 27 2012

MEMORANDUM FOR:	             Allen Gina
                             Assistant Commissioner
                             Office of International Trade
                             U.S. Customs and Border Protection

                             Kevin K. McAleenan
                             Acting Assistant Commissioner
                             Office of Field Operations
                             U.S. Customs and Border Protection

FROM:	                       Anne L. Richards
                             Assistant Inspector General for Audits

SUBJECT:	                    U.S. Customs and Border Protection’s Penalty Process –
                             Statute of Limitations

Attached for your action is our final report, U.S. Customs and Border Protection’s
Penalty Process – Statute of Limitations. We incorporated the formal comments from
the Δ΄Ί΄ ϡμφΩΡμ ̮΢͆ Ωθ͆͊θ ΃θΩφ̼͊φΉΩ΢͞μ ͷ͔͔Ή̼͊μ Ω͔ International Trade and Field
Operations in the final report.

The report contains two recommendations aimed at improving the management and
oversight of the penalties process. Your office concurred with all of the
recommendations. Based on information provided in your response to the draft report,
we consider the recommendations resolved. Once your office has fully implemented
the recommendations, please submit a formal closeout letter to us within 30 days so
that we may close the recommendations. The memorandum should be accompanied by
evidence of completion of agreed-upon corrective actions and of the disposition of any
monetary amounts.

Consistent with our responsibility under the Inspector General Act, we are providing
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Please call me with any questions, or your staff may contact John E. McCoy II, Deputy
Assistant Inspector General for Audits, at (202) 254-4100.

Attachment
                                         OFFICE OF INSPECTOR GENERAL
                                              Department of Homeland Security


   Table of Contents
   Executive Summary............................................................................................................. 1


   Background ........................................................................................................................ 2


   Results of Audit .................................................................................................................. 3


              FP&F Field Offices’ Consistency in Following SOL Waiver Policy .......................... 4

              HQ Office of Field Operations Oversight ............ …………………………………………………5

              Recommendations .................................................................................................. 7

              Management Comments and OIG Analysis ............................................................ 8


   Appendixes
              Appendix A:          Objectives, Scope, and Methodology............................................ 10

              Appendix B:          Management Comments to the Draft Report ............................... 12

              Appendix C:          Major Contributors to This Report ................................................ 15

              Appendix D:          Report Distribution ....................................................................... 16



   Abbreviations
              CBP                   U.S. Customs and Border Protection
              DHS                   Department of Homeland Security
              FP&F                  Fines, Penalties, and Forfeitures
              HQ                    Headquarters
              OFO                   Office of Field Operations
              OIG                   Office of Inspector General
              SAMEPH                Seized Asset Management and Enforcement Procedures Handbook
              SEACATS               Seized Asset and Case Tracking System
              SOL                   statute of limitations




www.oig.dhs.gov                                                                                                               OIG-12-131
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Executive Summary
   U. S. Customs and Border Protection (CBP) is responsible for collecting revenues and
   enforcing trade compliance. In fiscal year 2010, CBP processed about $2 trillion in trade
   imports and collected approximately $29 billion in duties, fees, taxes, fines, and
   penalties. In fiscal year 2010, the Department of Homeland Security (DHS) received
   correspondence from Senator Charles Grassley expressing concerns about alleged
   deficiencies in CBP’s revenue collection program, including non-collection of penalties.
   We initiated a series of audits, including this audit, to address Senator Grassley’s
   concerns.

   The objective of our audit was to determine whether CBP had effective processes in
   place to ensure that assessed penalties cases did not expire due to the statute of
   limitations. We reviewed CBP’s management and oversight of the penalties process as
   it pertains to penalty case statute of limitations.

   CBP has not fully established key management controls for the penalties process. Its
   Fines, Penalties, and Forfeitures field offices do not consistently follow policies and
   procedures, and Headquarters Office of Field Operations does not have effective
   oversight and enforcement authority. As a result, CBP cannot ensure that penalties
   cases do not expire due to the statute of limitations.

   We recommended that CBP perform an organizational assessment to determine
   whether resources are appropriately allocated to ensure effective penalty case
   management. We also recommended CBP develop and implement a Headquarters
   oversight plan to ensure the office responsible for oversight of penalty case
   management has authority to monitor field offices’ compliance with CBP guidance. CBP
   concurred with both of our recommendations.




www.oig.dhs.gov                                1                                       OIG-12-131
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


   Background
   CBP is responsible for managing and securing our Nation’s borders while facilitating
   legal travel and trade. CBP is also responsible for collecting revenues such as duties,
   taxes, fees, fines, and penalties. In fiscal year 2010, CBP collected approximately
   $29 billion in duties, user fees, and excise taxes, which included $61 million in fines and
   penalties.

   When CBP discovers a violation of law, it has the authority to assess fines and penalties.
   Penalties can be assessed on commercial and noncommercial imports. Penalties serve
   as a trade enforcement tool intended to deter noncompliance with trade laws. The
   Office of International Trade’s Commercial Enforcement Policy Division develops
   national policy for commercial penalties. The Office of Field Operations (OFO), Fines,
   Penalties, and Forfeitures (FP&F) Division, implements the policy for commercial
   penalties, and also develops and implements policy for noncommercial penalties.

   There are 42 FP&F field offices operating under the OFO oversight authority. The OFO,
   FP&F Division, has oversight responsibility; however, Directors of Field Operations, Port
   Directors, and frontline supervisors are responsible for enforcing policies and
   procedures. FP&F field offices adjust resources to develop, adjudicate, and monitor all
   penalty cases, as well as manage other enforcement processes, which include liquidated
   damages and seizures (see table 1).

           Table 1: Breakdown of CBP’s FP&F Field Offices’ Enforcement Workload

                                                             Percentage of
                                Case Types
                                                            Overall Caseload
                        Penalty Cases                                11
                        Liquidated Damages                           20
                        Seizures                                     69
                   Source: FP&F, Carrier Fines and Seized Property Assessment, October 2011


   From October 1, 2008, through March 31, 2011, CBP closed 1,567 penalty cases that
   expired because of the statute of limitations (SOL) with assessed penalties totaling $758
   million. We reviewed 42 of these cases, which totaled $415 million.

   CBP has broad authority to remit, mitigate, cancel, or compromise claims for penalties.
   Its Seized Asset Management and Enforcement Procedures Handbook (SAMEPH)
   provides guidance for penalty case initiation, analysis, monitoring, and management to
   maximize enforcement and compliance actions. There are three penalties for which the


www.oig.dhs.gov                                       2                                       OIG-12-131
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


   statute of limitations varies based on levels of culpability. In penalties assessed under
   19 U.S.C. 1592 or 19 U.S.C. 1593a, the statute is five years from the date of the violation
   when the level of culpability is negligence or gross negligence and five years from the
   date of discovery when the level of culpability is fraud. In penalties assessed under 19
   U.S.C. 1641(d)(4), the statute is five years from the date of the violation when the level
   of culpability is not fraud and five years from the date of discovery when the level of
   culpability is fraud. 1

   During the 5-year period, FP&F Officers receive and verify the timely and accurate
   submission of penalty payments, monitor penalty cases, and ensure the accuracy of
   revenue records prior to closing out penalty cases. CBP uses the Seized Asset and Case
   Tracking System (SEACATS) as the system of record for enforcement case information.
   SEACATS also provides a tracking and overdue alert system for managing penalty cases.
   Monthly SOL reports generated from SEACATS alert FP&F Officers of the length of time
   remaining on the SOL and if action is required. If less than 2 years remains, the FP&F
   Officer must solicit a waiver of the SOL and expedite the processing of the case. When
   the violator grants a waiver, the SOL is extended and CBP can have as much as an
   additional 2 years to process the penalty case.2

   The SAMEPH also requires that Action Due reports be generated and action taken at
   least weekly. FP&F Officers are accountable for monitoring all outstanding cases and
   reviewing the Action Due report. This report allows FP&F Officers to—

       •   Measure work produced;
       •   Verify office case load and backlog; and
       •   Track actions required to process the case.

   Results of Audit
   CBP does not have effective processes in place to ensure that penalty cases do not
   expire due to the SOLs. According to CBP documents we reviewed, CBP closed 1,567
   penalty cases from October 1, 2008, through March 31, 2011 because SOLs expired.
   Although CBP issued policies and procedures for penalty case management, FP&F field
   offices did not consistently follow SOL waiver policies and request SOL waivers timely.
   Available resources limit the frequency of CBP Headquarters’ (HQ’s) onsite survey visits;
   the annual field office self-inspections are not validated; and the type of data used for
   Monthly Assessment Reports is inconsistent from month to month. Moreover, OFO’s

   1
    19 United States Code (U.S.C.), Section 1621. 

   2
    Seized Asset Management and Enforcement Procedures Handbook released in January 2002; SOL Report 

   Memorandum, February 23, 2010.



www.oig.dhs.gov                                    3                                          OIG-12-131
                                  OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security


   FP&F Division is responsible for policy implementation and oversight of FP&F field
   offices to ensure compliance with policies and procedures, but has limited enforcement
   authority. Because of these limitations, CBP does not have reasonable assurance that
   penalty cases are finalized before the SOL expires, or that penalties serve as an effective
   trade enforcement tool.

           FP&F Field Offices’ Consistency in Following SOL Waiver Policy

           FP&F field offices do not always request SOL waivers in accordance with
           established CBP guidance. The SAMEPH requires field offices to monitor SOL
           reports monthly and to solicit an SOL waiver from the alleged violator(s) when
           less than 2 years remains before the SOL expires. We reviewed 42 closed
           penalty cases from five FP&F field offices. FP&F field offices failed to solicit an
           SOL waiver in a timely manner in nine of those cases. In 13 penalty cases, SOL
           waiver requests were not required for the following reasons: (1) importers filed
           for bankruptcy; (2) cases were pending a write-off decision; (3) there was no
           known address for the violator; or (4) CBP closed the case before the SOL
           expired.3 The FP&F field offices appropriately requested waivers in the 20
           remaining penalty cases (see table 2).

                    Table 2: Analysis of 42 Penalty Case SOL Waiver Requests

                                  Description of SOL Waivers                    Number
                         SOL Waivers Requested Appropriately                        20
                         SOL Waivers Not Required                                   13
                         SOL Waivers Not Requested Timely                            9
                                         Total                                      42
           Source: DHS OIG SOL Waiver Analysis. Results are based on review and analysis of 42 closed penalty case
           samples provided by CBP OFO FP&F Division extracted from SEACATS.


           Officials in one of the FP&F field offices we visited explained that they might not
           always request waivers in a timely manner because they strive to facilitate
           cooperative relationships with attorneys, who they know will not sign a waiver
           until a month or so before the SOL expires. When FP&F field offices do not
           request SOL waivers in time, CBP is at a higher risk of losing penalty cases
           because the SOL has expired.


   3
     A CBP FP&F Officer said, “If a penalty was already closed prior to the SOL and opened and reclosed to
   take ‘administrative action,’ the SEACATS system will show the latest closure date and the case will show
   up as an expired SOL penalty case.”


www.oig.dhs.gov                                           4                                                 OIG-12-131
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           At three of the seven FP&F field offices we visited, personnel said that they
           lacked resources. An FP&F Officer said that it was common for Paralegal
           Specialists to have caseloads of approximately 1,000 cases at any given time.
           These caseloads typically consist of penalties, liquidated damages, and seizures.
           The FP&F Officer provided printouts showing that liquidated damages and
           seizures made up the majority of the caseloads and indicated that working on
           penalties was not the top priority.

           We reviewed two documents from a workforce analysis study conducted by the
           OFO to determine the proper grade for the FP&F Officer position and to evaluate
           the organizational structure at the FP&F field offices. The documents showed
           that penalty caseloads increased by 52 percent from 2001 through 2007. The
           OFO developed three alternative organizational structures to support its
           proposed upgrade of the FP&F Officer. According to a CBP official, the FP&F
           Officer positions were upgraded, but the recommended organizational changes
           were not implemented. The authority to make staffing and organizational
           changes to FP&F field offices resides with the Port Directors, who report to the
           Directors of Field Operations, within OFO. As a result, FP&F field offices may not
           have adequate resources or the appropriate organizational structure to ensure
           that penalty cases do not expire because of the SOL.

           HQ Office of Field Operations Oversight

           CBP’s HQ OFO oversight of the FP&F field offices needs improvement. CBP
           officials said that they provide oversight of field offices using several methods,
           including onsite surveys, self-inspections, and Monthly Assessment Reports. The
           frequency and number of onsite survey visits are limited due to resource
           constraints; annual field office self-inspections are not validated by OFO, and the
           type of data used for Monthly Assessment Reports is inconsistent from month to
           month. Additionally, CBP HQ’s OFO, FP&F Division, does not have enforcement
           authority to require FP&F field offices to adhere to policies and procedures and
           manage penalty cases effectively.

           Onsite Field Office Surveys

           According to OFO’s FP&F Division personnel, onsite FP&F field office surveys are
           the most effective oversight method because they allow for a direct assessment
           of FP&F field office operations. Since January 2010, the FP&F Division has
           surveyed eight FP&F Offices out of 42, or 19 percent. OFO officials said that
           limited resources prevented additional onsite surveys.



www.oig.dhs.gov                                 5                                      OIG-12-131
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


           FP&F Field Office Self�Inspection Reports

           OFO also uses annual self-inspection reports to provide oversight of FP&F field
           offices. Self-inspection reports assess field office compliance with enforcement
           case processing standards, which include penalties. When asked whether OFO
           verifies the accuracy and completeness of the self-inspection reports, an OFO
           official said that it takes the reports at face value.

           Monthly Assessment Reports

           A third oversight method that the OFO uses is the FP&F field offices’ Monthly
           Assessment Reports. The OFO creates and analyzes Assessment Reports to
           determine FP&F field offices’ compliance with CBP guidance. Although the
           Monthly Assessment Reports add value to CBP’s oversight ability, in some
           instances the data reported in the Reports are inconsistent. For example, we
           looked at Monthly Assessment Reports for the month of October for 2009, 2010,
           and 2011. The reports contained data on the current workload of the FP&F field
           offices, outstanding penalties at each FP&F field office, and penalty amounts
           collected in the prior month. Some of the Monthly Assessment Reports did not
           contain data for all 42 FP&F field offices. In addition, there were inconsistencies
           in the type of data reported in each Monthly Assessment Report. For example,
           two of the reports contained data on SOL expirations but one of them did not.
           CBP guidance requires FP&F field offices to monitor case SOL expirations
           monthly, and HQ uses this information to improve management of the penalty
           process. A CBP official said that the Monthly Assessment Reports are a work in
           progress and that they are always being modified. In addition, the official said
           that due to system upgrades, some of the data might have been lost and not
           captured in the Monthly Assessment Report.

           Enforcement Authority

           The OFO’s organizational structure does not support effective management of
           the penalty program. Port Directors and Directors of Field Operations have
           primary responsibility for enforcing policies at the FP&F field offices; however,
           OFO has oversight responsibility for the field offices. As a result, OFO is limited
           in its ability to require FP&F field offices to adhere to CBP policies and procedures.

           When OFO found FP&F field offices to be noncompliant with policies and
           procedures for managing penalty cases, it issued recommendations to the
           Directors of Field Operations, who were responsible for taking corrective action.



www.oig.dhs.gov                                  6                                        OIG-12-131
                                 OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           Conclusion

           Although CBP has established policies and procedures for managing penalty
           cases, FP&F field offices are not consistent in following them. Because of limited
           resources and enforcement authority, CBP HQ needs to identify alternatives to
           onsite surveys and self-inspections to improve oversight and penalty case
           management. If not, CBP risks losing penalty cases because of expired SOLs and
           cannot ensure that penalties serve as an effective trade enforcement tool.

           Recommendations

           We recommend that CBP’s Assistant Commissioners for Office of International
           Trade and Office of Field Operations:

           Recommendation #1:

           Perform an organizational assessment to determine whether resources are
           appropriately allocated to ensure effective penalty case management at Fines,
           Penalties, and Forfeitures field offices.

           Recommendation #2:

           Develop, document, and implement a Headquarters oversight plan to ensure
           that the office responsible for oversight of penalty case management has the
           authority to monitor field offices’ compliance with CBP guidance and to ensure
           effective processing of penalty cases. At a minimum, the plan should—

                  •	 Ensure that monthly assessment data are consistent;

                  •	 Review evaluation standards for onsite visits, to include validation of
                     annual self-inspection reports;

                  •	 Develop a schedule of onsite field office oversight visits to ensure that
                     each office has effective management controls; and

                  •	 Develop protocols to ensure that Fines, Penalties, and Forfeiture field
                     offices implement program improvements resulting from the Office of
                     Field Operations’ oversight efforts.




www.oig.dhs.gov                                    7	                                      OIG-12-131
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           Management Comments and OIG Analysis

           CBP submitted formal comments to our report, and a copy of its response is
           included as appendix B. CBP also provided technical comments, and we have
           made changes to the report based on those comments. Additionally, CBP
           concurred with both our recommendations and our analysis of its concurrence
           follows.

           Recommendation #1:

           Perform an organizational assessment to determine whether resources are
           appropriately allocated to ensure effective penalty case management at Fines,
           Penalties, and Forfeitures field offices.

           CBP Comments to Recommendation #1

           CBP concurred with the recommendation. The workload staffing model is under
           review by DHS. Once approved it will be provided to Congress and will be the
           basis for the OFO FP&F field office’s staffing. OFO estimates to complete
           required actions by June 1, 2013.

           OIG Analysis

           We consider this recommendation to be open and resolved until the OIG has
           received and evaluated the supporting documentation of the workload model
           and the Resource Allocation Model; and that CBP has determined resources are
           appropriately allocated at FP&F field offices to ensure effective penalty case
           management.

           Recommendation #2:

           Develop, document, and implement a Headquarters oversight plan to ensure
           that the office responsible for oversight of penalty case management has the
           authority to monitor field offices’ compliance with CBP guidance and to ensure
           effective processing of penalty cases.

           CBP Comments to Recommendation #2

           CBP concurred with the recommendation. The OFO FP&F Division is developing,
           documenting and implementing a headquarters oversight plan to ensure that it
           has the authority to monitor field office’s compliance with CBP guidance and to


www.oig.dhs.gov                               8                                     OIG-12-131
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           ensure effective processing of penalty cases. CBP indicates that the FP&F
           Division has taken corrective actions to address this recommendation and
           expects to implement all corrective actions by January 31, 2013.

           OIG Analysis

           We consider this recommendation open and resolved because CBP’s plan of
           action and milestones for completion satisfy the intent of the recommendation.
           However, the recommendation will remain open until we can verify, through a
           review of supporting documentation, to include, the Dashboard reports from
           EDW; copies of Monthly Assessment Summary reports provided to FP&F Division
           senior management; a plan of expected site survey visits for 2013; the results of
           the FP&F Division’s Office of Internal Affairs Management Inspection Division’s
           focused assessment results and recommendations of the FP&F Division’s
           oversight protocols; and the revised Self-Inspection Case Processing worksheet.




www.oig.dhs.gov                                9                                       OIG-12-131
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
    The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
   to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   This report provides the results of our audit to determine whether CBP has an effective
   process to ensure that penalty cases do not expire because of the SOL.

   To determine the existence and implementation of CBP’s policies and procedures for
   oversight of the penalties process, we reviewed the SAMEPH, related CBP
   memorandums provided to CBP field offices, a workload study for years 2001–2007,
   FP&F Division site survey reports, and Monthly Assessment Reports.

   We interviewed personnel responsible for the initiation, implementation, and
   monitoring of the penalties process at seven out of 42 ports of entry with FP&F field
   offices. We visited the following field offices: Baltimore, MD; Chicago, IL; El Paso, TX;
   Milwaukee, WI; Newark, NJ; New York (JFK), NY; and Philadelphia, PA. We interviewed
   CBP officials involved in the implementation and oversight of the penalties process,
   including the Office of International Trade, OFO; the Internal Affairs Management
   Inspections Division at Internal Affairs; the Director of the National Finance Center in
   Indianapolis, IN; and Assistant Chief Counsels in New York, NY; El Paso, TX; and the
   National Finance Center in Indianapolis, IN.

   We reviewed 42 closed penalty cases with expired SOLs to determine whether field
   offices processed cases in compliance with the SAMEPH and related CBP guidance. We
   judgmentally selected the expired cases from the total of 1,567 penalty cases closed by
   CBP from fiscal year 2009 through the second quarter of fiscal year 2011.

   Figure 3 shows the assessed dollar amount of our sample against the approximate
   assessed penalties total for the fiscal years reviewed.




www.oig.dhs.gov                                10                                      OIG-12-131
                                      OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security


           Figure 3: Closed Expired Penalty Cases for Fiscal Years 2009 Through Second
           Quarter 2011


                  Sum of
                  Assessed
                  Penalty
                  Amount for
                  our                                       $415.48
                  judgemental
                  sample of 42
                  cases


                  Sum of
                  Assessed                                                       $758.79
                  Penalty
                  Amount for
                  universe of
                  1,567 cases
                                 $0                           $500
                                              In Millions of Dollars

           Source: Data provided by CBP on closed expired penalty cases for fiscal years 2009 through second quarter
           fiscal year 2011. DHS OIG analysis of CBP data of assessed penalties and the number of penalty cases for
           fiscal year 2009 through second quarter fiscal year 2011.


   The cases selected accounted for approximately $415 million of the approximate
   $758.8 million in assessed penalties during fiscal year 2009 through the second quarter
   of fiscal year 2011. We selected cases based on the case status text used to close the
   case in SEACATS, our planned field office visits, and cases greater than the assessed
   penalty average (mean) of $1.37 million. We reviewed penalty case documentation
   provided by field offices and case information retrieved from SEACATS by CBP HQ
   personnel. To support our audit objective and ensure the accuracy of SEACATS data, we
   verified SEACATS data by comparing them with official penalty case files obtained from
   selected FP&F field offices.

   We conducted this performance audit between May 2011 and January 2012 pursuant to
   the Inspector General Act of 1978, as amended, and according to generally accepted
   government auditing standards. Those standards require that we plan and perform the
   audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
   findings and conclusions based upon our audit objectives. We believe that the evidence
   obtained provides a reasonable basis for our findings and conclusions based upon our
   audit objectives.




www.oig.dhs.gov                                          11                                                 OIG-12-131
                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security


   Appendix B
   Management Comments to the Draft Report
                                                                                        ! 300 Pennsylvania AV("m~ NW
                                                                                        Washington, DC 20229


                                                                                        u.s. Customs and
                                                                                        Border Protection


                                                                                        September 12. 2012



                  Mr. Charles K. Edwards
                  Acting Inspector General
                  U.S. Dt:partmelll of Homeland SecUlity
                  245 Murray Drive, SW. Building 41 0
                  Washington, DC 20528

                  Re: Draft U IU Report, ·'U.S. C ustoms and Dorder Protection' s Penalty Process-Statllle
                  of Limitations- For OHicial Use On ly" (Project No. 11-026-AU D-CI3P)

                  Dear Mr. Edwards:

                  Th;mk you for the opportunity to rcview and comment on this report. The U. S. Customs
                  and Harder Protection (CHP) apprec iates the Department of Homeland Security O ffi ce o f
                  Inspecto r General's (O IU 's) work in plann ing and conducting its review and issuing this
                  report.

                  The draft report included two reeommendm ions the cap Office of Tntemational Trade
                  (01') and Office o f Field Oper<ltions (OFO) can take to enrumce its over<lll effect iveness .
                  Actions are already underway to imp lement these recoillmendations. The Onice of Field
                  Operations has been iuentified as the lead oHice Jor each recommendation. eBP concurs
                  with both of the recommendations. To the extent the corrective action plan requires j oi nt
                  action by the Offices of Field Operat ions and the Office ofInternatio nal Trade. oro
                  obtained concurrence from the OT, Officc of Regulations and Ru lings. Th~
                  recommendations are as foll ows:

                  Recomm end a tion fH: Perform an organizational assessment to determ ine whether
                  resources nre appropriately allocated to ensure effective penalty case manilgemcnt at
                  F ines, Penalties, and fo rfeitures field offices.

                  ReSI)Ollse: Cuncur. The Office ofField Opt:raliuns (OFO) Cuslums and Burdt:r
                  Protection Oificer (CBPO) workload staffmg model is currently being approved by the
                  Department of Ho meland Security fo r release to Congress . When approved by thc
                  Department , this model and it'> methodology will provide a basi s for the OFO Fines,
                  Penalties and Forfeitures (FP&F) Division staffing model design. 01·0 wi ll integlate
                  eftarts to le verage best practices and idt:1l1ify rdaliunships belwt:en CBPOs , who create
                  the FP&F case load. and the FP&F specialists who process the cases. To date FP&F has
                  completed the following:




www.oig.dhs.gov                                               12                                                       OIG-12-131
                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security




                     •   Workgroup meeting held to develop new position descriptions CPOs) and update
                         ex isting PDs for paTfilegnl speciniists in support of newly created FP&F office
                         organizati onal structures.
                     •   Com pleted a procurement reques t to obwin COnirdctor Sllpports services to
                         develop a Resource Allocation Model (RAM) fo r the FP&F Division.
                     •   Newly created and revised POs were submitted to the OFO, Mission Suppon
                         (MS) for processing with the Office of Human Resources Management (H RM).

                  FP&F wi ll distribute the new PDs to the fi eld to be provided to employees once
                  processed by MS and HRM. Addit ionall y, FP&F will cont inue worki ng with
                  procuremenl to o bmin tI contractor to create the RAM for the FP&F nj visilln. Estimated
                  Com pletion Date (ECD): June 1.2013.

                  Recommendation #2: Develop, document, and implement a headquarters oversight plan
                  to ensure that the office responsible for oversight of penalty case management has the
                  authority to monitor fie ld offices' compliance with CB P guidance and to ensure effective
                  processing of penalty cases. A t a minimum. the plan should-
                      • Ens ure that munthly a"sess rllt::nl data are consistent;
                      • Review evaluation standards for onsile visits, to inc lude validation of annual self-
                          inspection reports;
                      • Develop a schedule of onsile fie ld office oversight visits to ensure that each office
                          ha s effect ive management controls; and
                      • Develop protocols to ensure that Fines, Penalties, and Forfeiture field offices
                          implement program improvements resulting from the O ffi ee of Field Operations '
                          oversight efforts.

                  Response : Concur. T he OFO FP&F Division is developing, documenting, and
                  implementing a headquarters oversight plan to ensure that it has the authority to monitor
                  fi eld office s' comp liance with CBP guidance lInu to ensun.: effective processing of
                  penalty cases.

                  In fUl1herance, of this oversight plan, to date, lhe FP&F Divi sion hits taken the fo llowing
                  action:

                  I) Developed standardi zed dashboard repons in Enterprise Data Warehouse (EDW) for
                  use as an oversight tool by all Directors of Field Operations' staff and FP&F officers.
                  These reports ensure co nsistent data retri eval and bring data reporting requ ircmcnts in
                  line with headquarters po li cy. Under this schema, data repon parameters are control led
                  by FP&F D ivisio n. Deployed dashboard for testing al Hous ton amI Laredo Field Offices
                  and they cont inue to be deployed during sitc surveys and EDW training sessions. Full
                  deployment of dashboards should be completed by October 3 1,201 2, Monthly
                  Ass~ssmt! n t Rt!poning nf FP&F offices has been restruclUred to be more tightl y foc used.
                  Howcvcr, periodically. the report wi ll be readjusted to meet policy requirements and
                  address specific areas of concern. A revised Monthly Assessment l{eport Summary will
                  be tJist ribllted to FP& F Division senior management beg inning in September 2012 and
                  will be distributed 1110nthly.

                                                                                                              2




www.oig.dhs.gov                                               13                                                  OIG-12-131
                                    OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security




                  2) The Office of Internati onal Trade, Commercial Enforcement Policy Division (CEPD)
                  hfl!' heen eoll ahnratin g \...-[th the FP&F Division to provide staffsuppot1 nnd budget
                  resources for oversight vi.',<its. ThL" will ensure more effecti ve assessment ofpena h y
                  e1HCS and marc frequent cva luat ion o f effecti ve managemcnt conlrol o f FP&F offices.
                        • CEPD has already provided funds and staffing to the FP&F Di vision for field
                            oversight visits for August and September 20 12.

                  3) At the request of the FP&F Di visio n, the Offiee of Intemal A ffairs (1A), Management
                  Inspect ion Division, will be conducting a focused assessment of the FP&F Division 's
                  oversight protocols, including providing recommcndations for streng lhening them. Upon
                  completion of the locused assessment, FP&f 'A'ill implement lA ' s recommendations
                  designed to improve their oversight protocols.

                  4) The FP&F Division has rcvised its Self-lnspection Case Processing worksheet to
                  reflect more meaningfu l questions designed to more adequately assess the ficld's
                  compliance. The new worksheet will he acti ve heginning wi th the 201 3 Self-ln specli ot1
                  Program cyclc.

                  ECU: January 3 1, 2U 13

                  Agai n. lhank yuu fo r tht: oppurtuni1y 1u rt::view and comment on th is draft re porl.
                  Tec hn ical comments were provided under separate cover. Please fee l free to contact me
                  or Mr. Joseph Westmoreland, Deputy Director, Management Inspecti ons Divi~ion , at
                  (202) 325-7556, if you have any qucmions. We look fOl"v...ard to work ing with yOll in the
                  ruture.


                                                        s;ercl~/~
                                                     ~!~~r'a
                                                        James F. Tomsheck
                                                                                            .
                                                        Assistant Commis.~ioncr
                                                        Otlice o f Inte rnal Affairs




                                                                                                               3




www.oig.dhs.gov                                               14                                                   OIG-12-131
                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


   Appendix C
   Major Contributors to This Report
   Paul Wood, Director
   Cecilia Carroll, Audit Manager
   Frank Lucas, Project Lead
   Gary Alvino, Program Analyst
   Melissa Woolson, Program Analyst
   Vashti Gordon, Program Analyst
   Kevin Dolloson, Communications Analyst
   Bradley Mosher, Independent Referencer
   Marisa Coccaro, Independent Referencer




www.oig.dhs.gov                             15                 OIG-12-131
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix D
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Acting Chief Privacy Officer

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                  16                        OIG-12-131
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
